Audit of USAID/Nigeria's Monitoring of the
Performance of its HIV/AIDS Program

7-620-02-004-P
July 23, 2002




                   RIG/Dakar
  OFFICE OF THE
INSPECTOR GENERAL
  DAKAR, SENEGAL

July 23, 2002


MEMORANDUM

TO:             Dawn Liberi, Director, USAID/Nigeria

FROM:           Henry Barrett, RIG/Dakar /s/

SUBJECT:        Audit of USAID/Nigeria’s Monitoring of the Performance of Its
                HIV/AIDS Program (Report No. 7-620-02-004-P)

This report presents the results of our audit on USAID/Nigeria’s monitoring of the
performance of its HIV/AIDS program. In finalizing this report, we considered
management’s comments on our draft report. We have included those comments,
in their entirety, as Appendix II of this report.

This report contains five recommendations. Management decisions have been
reached on all five recommendations. Final actions have been completed for
Recommendations No. 1.1, 1.2, 3, and 4. Therefore these recommendations are
considered closed upon issuance of this report. Regarding Recommendation No.2,
USAID’s Office of Management Planning and Innovation, Management
Innovation and Control Division (M/MPI/MIC) is responsible for determining
when final action has occurred. Accordingly, when final action is completed,
USAID/Nigeria should submit such evidence to M/MPI/MIC for closure.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                   1
Table of   Summary of Results                                              3
Contents
           Background                                                      3

           Audit Objectives                                                5

           Audit Findings

                  Did USAID/Nigeria monitor performance of its HIV/AIDS
                  program in accordance with Automated Directives
                  System guidance?                                         6

                         Performance Monitoring Plan Does
                         Not Comply With ADS                               7

                         Data Quality Assessments Should Be
                         Documented                                        9

                  Is USAID/Nigeria achieving intended results from its
                  HIV/AIDS program?                                       10

                         Performance Data for Indicator Reported
                         in R4 Not Verified                               11

                         Targets Not Established
                         for All Indicators                               12

                  What is the status of USAID/Nigeria’s efforts to meet
                  anticipated HIV/AIDS reporting requirements?            13

                  Management Comments and Our Evaluation                  14

                  Appendix I − Scope and Methodology                      16

                  Appendix II – Management Comments                       18

           Appendix III – Rapid Scale-Up, Intensive Focus, and Basic
           Countries                                                      23

           Appendix IV – Summary of USAID/Nigeria’s Selected
           Performance Monitoring Controls                                24




                                                                               2
 Summary of   O verthe last three years, HIV/AIDS funding has increased dramatically from
 Results      $142 million in fiscal year 1999 to over $300 million in fiscal year 2001. This
              increase in funding has created a demand for greater accountability on the part of
              USAID and its operating units, both as to monitoring progress and achieving
              intended results. (See pages 3-5)

              USAID procedures for monitoring programs, including its HIV/AIDS programs, are
              contained in its Automated Directives System (ADS). To determine whether
              USAID/Nigeria managed its HIV/AIDS program in accordance with the ADS, we
              reviewed three indicators from the Mission’s Performance Monitoring Plan (PMP)
              against eleven controls contained in the ADS and found that the PMP did not meet
              eight of the control elements. During our audit fieldwork, USAID/Nigeria was in
              the process of making revisions to its PMP to comply with ADS guidance. We
              recommend that USAID/Nigeria complete and finalize its PMP and perform and
              document data quality assessments for all HIV/AIDS indicators. (See pages 6-10.)

              To determine whether the Mission is achieving intended results, we selected two
              of the six HIV/AIDS indicators: (1) number of condoms sold and (2) proportion
              of targeted group reporting condom use in the most recent act of sex with non-
              regular partner. We found that in 2000, USAID/Nigeria achieved intended results
              relating to condom sales, the first indicator. However, we could not assess the
              Mission’s performance relating to the second indicator because the Mission did
              not set a target for this indicator in 2000. We also noted that incorrect FY 1999
              performance data was reported in the Mission’s R4 (Resource Review and
              Resource Request). We recommend that USAID/Nigeria establish targets for all
              indicators in the PMP and correct the error noted in its FY 1999 performance
              data. (See pages 10-14.)

              To improve the monitoring and reporting process for its HIV/AIDS program,
              USAID has drafted monitoring and evaluation guidance. The guidance
              establishes several global targets USAID expects to achieve because of the
              additional funding it anticipates and requires missions to routinely report and
              monitor the performance of their HIV/AIDS programs using standard indicators.
              USAID/Nigeria has not initiated specific actions to meet the new requirement.
              Officials informed us that they were unaware of the new requirements prior to the
              audit. The Mission planned to obtain further clarification from Washington prior
              to making commitments on its ability to meet the new requirement. (See pages 14
              and 15.)



              USAID funding for HIV/AIDS has increased dramatically over the past three
Background    years—from $142 million in fiscal year 1999 to over $300 million in fiscal year
              20011 (see graph below). USAID is organizing its response to HIV/AIDS around

              1
                  Information was provided by USAID and is unaudited.


                                                                                                   3
the following three categories of countries: Rapid Scale-Up, Intensive Focus, and
Basic. USAID/Nigeria is one of thirteen countries classified as an Intensive

This bar chart shows total USAID funding for HIV/AIDS for three years: $147
million for 1999 is shown in yellow, $190 million for 2000 is shown in blue, and
                       USAID's
over $300 million for 2001     HIV/AIDS
                           is shown      Funding
                                     in red.
                                                by fiscal year



                                   350
                                   300


             millions of dollars
                                   250
                                   200
                                   150
                                   100
                                   50
                                    0
                                         1999           2000     2001



Focus Country, that is, a country which will receive increased resources from
USAID. The resources will be targeted to reduce prevalence rates and provide
other HIV related services within three to five years (see Appendix III for a more
complete description of these categories).

With the funding increase, there has been much interest in monitoring the impact
of USAID assistance on the HIV/AIDS epidemic. In its report on USAID’s Fight
Against HIV/AIDS In Africa, 2 the U.S. General Accounting Office (GAO)
recommended that USAID select standard indicators, gather performance data on
a regular basis, and report this data to a central unit for analysis. In March 2000,
USAID published a handbook that discusses standard indicators for monitoring
and evaluating HIV/AIDS programs. In February 2001, USAID issued
monitoring and evaluation guidance entitled USAID’s Expanded Response to the
Global HIV/AIDS Pandemic, which summarizes new reporting requirements for
USAID’s HIV/AIDS programs.

Nigeria, with an estimated population of 100 million, has experienced a rapid
increase in the transmission of HIV/AIDS infections. From 1988 to 1999, the
prevalence rate rose from 1.8 percent to 5.4 percent. A USAID/Nigeria Country
Strategy Report suggests that approximately 4 to 5 million Nigerians are infected
with HIV/AIDS, which, in actual numbers, is more HIV/AIDS infections than in
countries in southern Africa with prevalence rates at 30 percent 3 .


2
  U.S. Agency for International Development Fights AIDS in Africa, but Better Data Needed to
Measure Impact (GAO-01-449, March 2001).
3
  USAID/Nigeria Country Strategy, August 1999.


                                                                                               4
                   USAID assistance to the Government of Nigeria (GON) has increased in recent
                   years following the restoration of civilian rule in May 1999, after 16 years of
                   military dictatorship. Funding for HIV/AIDS activities, for example, was
                   increased from $1.6 million in 1998 to $12 million in 2001 and is estimated to
                   more than double to $26.8 million in 2003. The Mission, which previously
                   worked primarily through non-governmental organizations (NGOs), is now
                   developing partnerships with the GON. Consequently, the USAID/Nigeria office
                   was recently relocated from Lagos to Abuja, the country’s capital.

                   The Mission is also in the process of hiring needed staff to implement its
                   increasing portfolio. These changes, which occurred within a relatively short
                   time, appear to have been a major constraint on the Mission’s capability to
                   implement fully its HIV/AIDS activities in accordance with USAID requirements.
                   Nevertheless, the Mission did have a performance monitoring plan (PMP),
                   developed in 1998, which it used during the “transition period” to monitor the
                   performance of its HIV/AIDS activities. The Mission was in the process of
                   revising the PMP at the time of this audit.



Audit Objectives   This audit is one of a series, to be conducted worldwide, of USAID’s monitoring of
                   the performance of its HIV/AIDS program at the operating--unit level. The
                   Performance Audits Division of USAID’s Office of Inspector General (OIG) is
                   leading the audits. The Regional Inspector General, Dakar (RIG/Dakar), conducted
                   this audit.

                   The audit objectives and the scope and methodology for the audit were developed in
                   coordination with USAID's HIV/AIDS Division in the Bureau for Global Programs,
                   Field Support and Research. RIG/Dakar performed this audit in Nigeria to review
                   USAID/Nigeria’s HIV/AIDS program and, specifically, to answer the following
                   audit objectives:

                   •   Did USAID/Nigeria monitor performance of its HIV/AIDS program in
                       accordance with Automated Directives System guidance?

                   •   Is USAID/Nigeria achieving intended results from its HIV/AIDS program?

                   •   What is the status of USAID/Nigeria’s efforts to meet anticipated HIV/AIDS
                       reporting requirements?

                   Appendix I describes the audit’s scope and methodology.




                                                                                                        5
Audit      Did USAID/Nigeria monitor performance of its HIV/AIDS program in
Findings   accordance with Automated Directives System (ADS) guidance?

           USAID/Nigeria did not monitor performance of its HIV/AIDS program in
           accordance with USAID’s ADS. The ADS outlines USAID’s policies and
           procedures for implementing a performance monitoring system. We reviewed
           USAID/Nigeria’s performance against eleven control elements in the ADS. The
           Mission met two of the controls in the ADS requirements; had mixed results on one
           control element; and did not meet eight control elements.

           As a result of these control weaknesses, we found instances when the Mission had
           erroneous performance data—one of which was reported in the Mission’s annual
           report.

           To answer the first objective, we reviewed three indicators from USAID/Nigeria’s
           Performance Monitoring Plan (PMP), which fairly represent broad sections of the
           Mission’s HIV/AIDS program: (1) number of condoms sold (or condoms sales
           indicator), (2) proportion of targeted groups reporting condom use in the most recent
           act of sex with non-regular partner (or condoms use indicator), and
           (3) proportion of AIDS patients managed at home through community-based
           organizations (or care indicator).

           Our review of the PMP and other mission documents supporting the monitoring of
           these indicators disclosed that the Mission met two of the ADS requirements.
           Namely, the Mission did include a detailed description of each performance
           indicator in the PMP, and the Mission used other tools such as site visits and
           portfolio reviews to monitor its program, in accordance with the ADS. For one
           control element, “data agrees to source,” the Mission had mixed results; that is, the
           data agrees for the year 2000 but not for 1999.

           Finally, the Mission had weaknesses for eight control elements. Specifically, the
           Mission’s performance monitoring system was weak regarding: (1) data sources, (2)
           data collection methodology, (3) data collection schedules, (4) assignment of
           responsibilities, (5) data limitations, and (6) data quality procedures. Additionally,
           we noted instances where (7) data quality assessments were not performed or
           documented and (8) baselines and targets were not established. The discussion of
           the last two requirements and the issue of erroneous performance data are discussed
           under objective two of this report. The following is a brief discussion of the other
           weaknesses noted.




                                                                                                   6
Performance Monitoring Plan
Does Not Comply with ADS

In accordance with ADS 201.3.4.13 (a), the PMP must (1) provide a detailed
description of the performance indicators to be tracked, (2) specify the source,
(3) specify the data collection method, (4) establish a schedule for data collection,
(5) assign responsibility for data collection to a specific office, team, or individual,
(6) disclose known data limitations, and (7) describe the data quality assessment
procedures that will be used to verify the actual performance data.

Based on the representative indicators included in the PMP, the Mission did not
comply with six of the above ADS requirements, as noted below.

Data sources – The data sources cited in the Mission’s PMP for the indicators we
reviewed were either not specific enough or were incorrect. For example, the data
source listed for the sales indicator was “routine record keeping.” In accordance
with USAID’s Performance Monitoring and Evaluation Guidance, TIPS 7, data
sources should be as specific as possible to ensure consistency in the data collection
process. The PMP should specify the organization, as well as the type of document
used.

Data collection methods – The methodology should adequately describe the tools
(type of forms/reports), techniques (questionnaire, focus groups, observation, etc.)
and the steps that will be used to prepare the data for reporting purposes. Yet, the
methodologies described in USAID/Nigeria’s PMP were not specific. For example,
to describe the sales indicator, the PMP included the following statement: “PSI/SFH
(Population Services International/Society for Family Health) records plus sales by
other implementing agencies.” In this case, although the Mission stated that it
obtained its sales data from PSI/SFH, it did not describe the method used for
collecting that data.

Data collection schedules – The PMP also did not clearly specify data collection
schedules for two of the three indicators reviewed. For example, for the condoms
use indicator, the plan listed data collection frequency as 1998 and 2002 with a
midterm survey collection frequency recommended in 2000. However, actual data
collection occurred in 2000.

Assignment of responsibility - The Mission’s plan did not clearly assign
responsibility for collecting and reporting the data as required by the ADS. The plan
did not list the specific USAID/Nigeria team member(s) who were responsible for
the performance indicators reviewed.

Disclosure of data limitations – The plan did not disclose any data limitations for
the performance indicators we reviewed. The ADS requires that the PMP disclose
any issue that may affect data quality.



                                                                                           7
Description of data quality assessment procedures – Finally USAID/Nigeria did
not describe its data quality assessment procedures in the PMP. According to this
ADS requirement, effective June 1, 2001, missions are required to describe the
procedures that will be used to verify the performance indicator data.

Mission officials stated that the PMP had not been updated to comply with ADS
requirements because the Mission was in transition. The following changes
occurred at the Mission within a short period of time:

       (1)     As result of the country’s transition from a military to civilian
               government, USAID resumed relationships with GON agencies;

       (2)     the Mission was relocated from Lagos to Abuja; and

       (3)     the Mission’s portfolio, funding and staff were increased significantly.
               For example, staffing doubled from 1999 to 2000, and the HIV/AIDS
               program increased substantially from $3 million in 1999 to $12
               million in 2001.

Another reason for the incomplete PMP was that new staff with PMP
responsibilities was not aware of all of the applicable ADS requirements. However,
at the time of our audit, the Mission with the aid of a consultant was in the process of
updating the PMP.

The PMP serves as the primary tool to support results-focused program
management, which requires access to useful, timely, and reliable information for
decision making. If elements from the PMP—such as data sources, data collection
methodology, data limitations, and/or data quality assessment procedures—are
incomplete or not specified for each indicator, the Mission reduces its assurance that
(1) data will be consistent from year to year, (2) users are aware of data limitations,
and (3) reliable information will be provided for reporting purposes. The
completion and implementation of a PMP with its proper elements will assist the
Mission in managing for results and meeting expanded reporting requirements.

       Recommendation No. 1: We recommend that USAID/Nigeria:

             1.1    complete and finalize its Performance Monitoring Plan to
                    include specific sources of data, data collection methodologies,
                    data collection schedules, assignment of responsibilities, data
                    limitations, and data assessment procedures for all its
                    indicators; and

             1.2    provide training on performance monitoring to the staff
                    responsible for implementing the plan.




                                                                                      8
Data Quality Assessments
Should Be Documented

USAID policy, as articulated in its ADS 203.3.6.5 and ADS 203.3.6.6, requires that
data quality assessments be performed at least every three years for all indicators
reported in USAID’s annual reports and for other data included “in special reports to
Congress or other oversight agencies.” Such assessments are intended to ensure that
performance information is sufficiently complete, accurate, and consistent. The
guidance further notes that when conducting data quality assessments, operating
units must:

•   verify and validate performance information to ensure that data are of
    reasonable quality;

•   review data collection, maintenance, and processing procedures to ensure
    that they are consistently applied and continue to be adequate; and

•   retain documentation of the assessment in performance management
    files—a requirement that is in accord with general Federal requirements
    to document significant events and to retain such documentation for
    future examination.

However, for the three indicators reviewed, we saw no evidence that data quality
assessments were performed. With reference to the condom sales indicator, the
Mission officials said that they conducted site visits to assess data quality. The
officials, however, did not provide documentation to support the assessment
activities performed during the site visits. Similarly, regarding the condom use
indicator, the officials did not provide documentation for any data quality
assessments performed; rather, they explained to us the Mission’s procedures to
ensure data quality. Concerning the third indicator, “proportion of AIDS patients
managed at home through community-based organizations,” there was no data
collected. USAID/Nigeria stated that it was dropping this indicator from the revised
PMP. But the Mission provided no documentation on the assessment used to
determine that this indicator was no longer appropriate.

Again, officials gave the Mission’s transition status as a cause for this weakness.
We believe also that the assessments were not performed or documented because the
data quality assessment procedures were not included in the PMP. In fact, at the
time of the audit, the Mission was in the process of updating its PMP.

Data quality assessments are a key element of USAID's performance monitoring
system. Without such assessments the quality of data being collected and reported is
simply assumed and data limitations, if any, are not documented and recognized. As
a result, flawed data may be reported and erroneous management decisions could be
made based on that flawed data. Documenting such assessments helps ensure that
they are done and that the results are available to successive managers. In addition,


                                                                                    9
with increased funding for HIV/AIDS and with expanded reporting requirements
(see third audit finding below), we believe that it is even more urgent that missions
ensure that the data collected for all key indicators used to manage their HIV/AIDS
programs be reliable. Although the ADS currently requires data quality assessments
only for indicators reported in the annual reports or official documents being
reported to Congress, the OIG believes that the data quality assessment requirements
should apply to all indicators in a mission’s PMP.

       Recommendation No. 2: We recommend that USAID/Nigeria perform
       data quality assessments for all indicators in its Performance
       Monitoring Plan and maintain documentation in its files.

Is USAID/Nigeria achieving intended results from its HIV/AIDS program?

In fiscal year 2000, USAID/Nigeria achieved its intended results for the condoms
sales indicator, but there was inadequate data to determine whether the Mission
achieved its intended results for the condoms use indicator. There was inadequate
data because the Mission did not establish targets for the indicator as required by
USAID guidance. As a result, the Mission could not ensure that its activities related
to the condom use indicator were achieving the intended results. In addition, an error
was discovered in the performance data that the Mission reported in its FY 1999
annual report.

To answer our second audit objective, we reviewed Mission documents and
activities related to two of the three indicators selected for our first objective: (1)
number of condoms sold and (2) proportion of targeted groups reporting condom use
in the most recent act of sex with non-regular partner. The third indicator, patients
managed at home through community-based organizations, was not selected because
the Mission stated that it was in the process of deleting this indicator from its PMP.
In addition, we performed site visits to review some of the Mission’s activities
supporting the indicators selected.




       Photograph of participants attending a USAID-funded one-day sensitization
       seminar on HIV/AIDS at Alaba International Market, Lagos, Nigeria (October
       2001).


                                                                                     10
The Mission achieved its intended results for condom sales in FY 2000. The
Mission’s target for that year was 61 million condoms sold, and 71 million
condoms were actually sold. Condom accessibility and availability are major
components of USAID/Nigeria’s HIV/AIDS program.

The AIDS social marketing project is implemented through PSI/SFH, a local non-
governmental organization (NGO) focusing on creating demand for condoms and
other HIV/AIDS and reproductive health services. While condom sales are not a
perfect proxy of condom use, the Mission believes that condom sales are still a
reasonable indicator of behavioral intention. USAID/Nigeria cites its increase in
condom sales as an indication that performance for its HIV/AIDS program is on
track.

Working with local partners, the program aims to increase demand for and use of
condoms through information, education, and communication activities. We
observed some of these activities during the audit (photo shown above). For
example, we attended one of the seminars conducted by CHIEF, (Community
Health Information Education Forum), one of USAID/Nigeria’s local
implementing partners, whose activities are designed to improve knowledge of
HIV/AIDS and to promote safer sex practices among Nigeria’s youth.

Although the data supporting the Mission’s condom sales for FY 2000 were verified
as accurate, an error was discovered in the performance data the Mission reported
for FY 1999.

Performance Data for Indicator
Reported in R4 Not Verified

USAID guidance ADS 203.3.6.6 requires missions to verify and validate
performance information to ensure that data are of reasonable quality. However,
our review of the indicator “number of condoms sold” disclosed that
USAID/Nigeria did not perform a data quality assessment to verify the data
reported. As a result, erroneous data was reported in the Mission’s annual report.

The Mission’s condoms sales data are generated by PSI/SFH. The amount
reported in FY 1999 for PSI/SFH’s monthly sales and distribution reports was
reported incorrectly as 58 million condoms sold instead of the actual 53 million
condoms sold. The Mission’s target for the year was 55 million. Therefore,
contrary to the Mission’s report on its performance data in the FY 2003 R4, the
Mission did not achieve its target of 55 million condoms sold for FY 1999. This
error was not detected until our audit.

This condition occurred primarily because USAID/Nigeria did not perform a data
quality assessment to verify the performance data reported for the indicator.
USAID/Nigeria was unaware that the data reported for this indicator were
incorrect. This, we believe, underscores the need for our earlier recommendation
to train staff on performance monitoring, which includes data verification. As


                                                                                 11
articulated in objective one, data quality assessments are an important monitoring
control and aid in detecting and correcting flawed or erroneous data that may be
reported by the Mission and relied upon by decision-makers.

       Recommendation No. 3: We recommend that in its future annual
       reports and other special reports USAID/Nigeria report the correct
       data on “number of condoms sold” for fiscal year 1999.

Targets Not Established
for All Indicators

The second indicator we used to assess whether the Mission was meeting its
intended results was the condoms use indicator, specifically, “proportion of
targeted groups reporting condom use in the most recent act of sex with non-regular
partner”. Establishing safer sexual behavior has probably been the most important
area of programming for most national HIV/AIDS programs to date. Programs
seek to delay first sex among young people and encourage lifelong, mutually
monogamous partnerships. Because such partnerships are more the exception
than the norm in many cases, programs also encourage reducing the overall
number of sexual partners and using condoms, especially with partners other than
one's spouse.

Working with NGOs, USAID/Nigeria has several programs designed to promote
and sustain risk-reducing behavior change in individuals and communities.
Target populations for these interventions are youths, female sex workers (FSW),
transport workers, and religious organizations. One such NGO that we visited
during the audit in Lagos was the Life Link Organization (LLO). This NGO
provides HIV/AIDS interventions to FSWs and their clients. The goal is to
reduce the transmission of HIV/AIDS and other sexually transmitted infections by
promoting risk reduction. LLO works with numerous brothels in five local
government areas and provides seminars, workshops, counseling, and vocational
training to the FSWs. Some of the FSWs we interviewed during our visit
confirmed that as result of LLO’s training, they insist on using condoms with all
their clients.

Although the Mission’s activities appeared to be making progress towards
increasing the use of condoms in the population, the Mission did not establish
performance targets to properly measure its performance.

USAID/Nigeria did not establish targets for all indicators. Specifically, targets were
not established for the condom use indicator in FY 2000. ADS 201.3.4.13 indicates
that baselines and targets should be determined for each of the performance
indicators in the PMP. USAID’s Performance Monitoring and Evaluation
Guidance, TIPS No. 8 explains further that operating units should establish a
performance target for each performance indicator it selects. USAID/Nigeria,
therefore, needed to establish performance targets for all the indicators in the PMP.



                                                                                    12
The Mission stated that the first year of data collection for the condom use indicator
occurred in FY 2000 using the Behavioral Surveillance Survey (BSS) and will serve
as the baseline. A Mission official added that data was collected for this indicator,
but the data was used primarily for internal program decisions and, thus, no targets
were established. We believe the Mission should have used the previous year’s data
as a baseline and set a target for 2000.

Office of Management and Budget (OMB) Circular A-123 requires that agencies
and individual Federal managers take systematic and proactive measures to develop
and implement management controls for results-oriented management. It goes on to
state that management controls are the policies and procedures used to reasonably
ensure that programs achieve their intended results. These monitoring controls, also
discussed under the objective one section of this report, consist of establishing
indicators to manage for results, collecting baseline data for these indicators prior to
project intervention, setting targets for the indicators, periodically collecting data to
monitor results, and assessing the quality of the data being collected. Without the
establishment of these monitoring controls, missions cannot reasonably ensure that
programs, such as USAID/Nigeria’s HIV/AIDS program, are achieving their
intended results.

        Recommendation No. 4: We recommend that USAID/Nigeria establish
        targets for all indicators used to monitor the performance of its
        HIV/AIDS programs.

What is the status of USAID/Nigeria’s efforts to meet anticipated HIV/AIDS
reporting requirements?

Because the Mission was unaware of the anticipated new HIV/AIDS reporting
requirements prior to the audit, USAID/Nigeria had not initiated specific actions
towards meeting those requirements. Mission officials said that they had not
received copies of USAID's draft “Monitoring and Evaluation Guidance.” Upon
reviewing the guidance, the Mission believed that some of the requirements might
not be applicable to Nigeria, given the country’s complex geopolitical situation.
The Mission proposed to obtain clarification from Washington prior to
determining whether it would be able to meet the anticipated requirements.

Due to the significant increase in HIV/AIDS funding from 1999 to 2001, there has
been a great deal of interest in monitoring the results of USAID’s assistance in
this area. In March 2000, USAID's Global Bureau developed a handbook of
standard indicators that operating units could use to measure the progress of their
HIV/AIDS programs. In March 2001, the U.S. General Accounting Office
(GAO) issued its report on USAID’s Fight Against HIV/AIDS in Africa, which
reported the need to be able to better monitor progress (see page 4). In its report,
GAO recommended that USAID’s operating units adopt standard indicators to
measure program performance, gather performance data on a regular basis, and
report data to a central location for analysis.



                                                                                       13
                 To improve the monitoring process for its HIV/AIDS program, USAID has
                 drafted monitoring and evaluation guidance entitled, USAID’s Expanded
                 Response to the Global HIV/AIDS Pandemic. This new guidance establishes
                 several global targets which USAID expects to achieve with its additional funding
                 and requires missions to routinely monitor and evaluate their HIV/AIDS programs
                 in a definitive, systematic way and to report on their progress. The draft guidance
                 would require USAID/Nigeria and the missions of other Intensive Focus
                 Countries, to collect and report information at the following three levels:

                 •   At the first level, the missions would be required, by 2007, to develop a national
                     sentinel surveillance system to report annually on HIV prevalence rates so as to
                     measure the overall effect of national HIV/AIDS prevention and mitigation
                     programs on the pandemic. The standard indicator for this measurement,
                     according to the draft guidance, would be HIV prevalence rates for 15-24 year
                     olds.

                 •   The second level would require the missions to conduct standardized national
                     sexual behavior surveys every 3 to 5 years, beginning in 2001.

                 •   At the third level, the missions would be required to report annually, not only
                     on trends at the national level—which may or may not directly reflect
                     USAID-funded activities—but on progress toward implementing USAID's
                     HIV/AIDS programs and increasing the proportion of the target population
                     covered by these programs. The draft guidance lists seven standard indicators
                     that missions might use to measure progress in selected program areas.

                 At the time of the audit, the Mission was in the process of updating its
                 Performance Monitoring Plan and revising its indicators. Therefore, we were
                 unable to adequately assess which of the above requirements the Mission could
                 meet. Mission officials said they would like to get clarification from
                 USAID/Washington prior to making any commitments on whether they would be
                 able to meet the new reporting requirements.



Management       Recommendation No. 1.1 requests the Mission to complete and finalize its PMP
Comments and     to include specific sources of data, data collection methodologies, data collection
Our Evaluation   schedules, assignment of responsibilities, and data assessment procedures for all
                 its indicators. The Mission concurred with this recommendation and provided, as
                 part of its management comments, performance indicator reference sheets
                 documenting its actions taken to date. We commend USAID/Nigeria on the
                 development of such comprehensive indicator reference sheets. Based on the
                 Mission’s response and actions taken, this recommendation is considered closed
                 upon issuance of this report.




                                                                                                     14
Recommendation No. 1.2 requests USAID/Nigeria to provide training on
performance monitoring to the staff responsible for implementing the plan. In
February 2002, the HIV/AIDS program manager attended Measure Evaluation’s
“Workshop for Strengthening National HIV/AIDS Programs” held in Dakar,
Senegal. The Mission stated that the HIV/AIDS manager also visited other
USAID missions’ HIV/AIDS project sites for on-the-job training. Based on the
Mission’s response and actions taken, this recommendation is considered closed
upon issuance of this report.

Recommendation No. 2 requests USAID/Nigeria to perform data quality
assessments for all indicators in its Performance Monitoring Plan and maintain
documentation in its files. The Mission stated in its response that they have
completed and documented all data quality assessments using ADS recommended
data quality checklist as a guide. To close this recommendation, the Mission
should submit evidence of completion of the data quality assessments to USAID’s
Office of Management Planning and Innovation, Management Innovation and
Control Division (M/MPI/MIC).

Recommendation No. 3 requests that the Mission report the correct performance
data for “the number of condoms sold” for FY 1999 in all future annual reports
and other special reports. In its response, the Mission stated that the performance
data for condom sales for FY 1999 was verified and corrected to approximately
51 million and documented in its HIV/AIDS PMP files. The Mission added that it
would make the correction in all future reports. Based on the Mission’s response
and actions taken, this recommendation is considered closed upon issuance of this
report.

Recommendation No. 4 requests that USAID/Nigeria establish targets for all
indicators used to monitor the performance of its HIV/AIDS programs. The
mission stated in its response that it established baseline and targets for all
performance indicators reported in the annual report. Copies of the mission’s
indicator reference sheets, which were included with the mission’s response, show
that targets and baselines were established for its HIV/AIDS indicators. Based on
the Mission’s response and the actions taken, this recommendation is considered
closed upon issuance of final report.

In summary, USAID/Nigeria’s comments to the draft report, which are included
in their entirety in Appendix II, indicate that management decisions have been
reached on all five recommendations. Final actions have been completed for
Recommendations No. 1.1, 1.2, 3, and 4. Therefore these recommendations are
considered closed upon issuance of this report. Regarding Recommendation
No.2, USAID’s Office of Management Planning and Innovation, Management
Innovation and Control Division (M/MPI/MIC) is responsible for determining
when final action has occurred. Accordingly, when final action is completed,
USAID/Nigeria should submit such evidence to M/MPI/MIC for closure.




                                                                                 15
                                                                                 Appendix I

Scope and     The Regional Inspector General, Dakar (RIG/Dakar), conducted this audit in
Methodology   accordance with generally accepted government auditing standards. The purpose
              of the audit was to determine (1) if USAID/Nigeria was monitoring performance
              of its HIV/AIDS program in accordance with Automated Directives System
              (ADS) guidance, (2) if USAID/Nigeria is achieving intended results from its
              HIV/AIDS programs, and (3) the status of USAID/Nigeria’s efforts to meet
              anticipated HIV/AIDS reporting requirements. For the first objective, the audit
              covered three indicators in USAID/Nigeria’s performance monitoring plan
              (PMP). The Mission confirmed that the selected indicators were a good
              representation of the Mission’s HIV/AIDS activities. Concerning the second
              objective, determination as to whether intended results had been achieved was
              based on the fiscal year 2000 results of the two indicators selected from
              USAID/Nigeria’s PMP. In evaluating for intended results, we recognized that in
              many cases other entities—as well as the host country—also participated in
              achieving these results. Since the third objective is a descriptive objective, the
              results were based on the facts at the time of the audit. Fieldwork was conducted
              in Accra, Abuja, and Lagos from October 9 through November 2, 2001.

              For fiscal year 2000, targets were not available for one of the two indicators
              selected. The Mission collected data for this indicator in 2000 that will serve as
              the baseline, but no targets were established. To evaluate USAID/Nigeria’s
              achievements for its HIV/AIDS program, we used performance results reported to
              USAID/Nigeria by the Population Services International / Society for Family
              Health (PSI/SFH) for the “number of condoms sold”. Auditors visited PSI/SFH
              in Lagos on October 24, 2001 to evaluate the reliability of the data, and obtained
              and reviewed monthly sales reported for condoms sold to ensure completeness,
              accuracy, and consistency. To assess data quality, we relied on the results from
              the testing and statements by PSI/SFH’s personnel.

              Our review of the Mission’s management controls focused on USAID/Nigeria’s
              performance monitoring plan and how well the Mission complied with USAID,
              Office of Management and Budget (OMB), and General Accounting Office
              (GAO) policies and guidance. Specifically, we assessed the Mission’s internal
              controls for identifying and monitoring performance indicators, reporting data for
              the baseline, and determining whether quality data is collected, maintained, and
              processed according to ADS guidance.

              Methodology

              To answer the first audit objective, we reviewed the Mission’s performance
              monitoring plan and compared it to the requirements set forth in USAID's ADS.
              We reviewed the PMP to determine if data sources were specified, data quality
              assessments and procedures were completed, baselines were established, and if
              data agreed to source documents. We also obtained information as to what other
              methods were being used by the Mission to monitor its HIV/AIDS program.


                                                                                               16
To answer the second objective, we analyzed planned and actual data for two of
the indicators presented in the Mission's PMP and/or Results Review and
Resource Request (R4). For the number of condoms sold, we reviewed monthly
sales reports from PSI/SFH, which included tracing data from PSI/SFH’s monthly
sales report to quarterly reports submitted to USAID/Nigeria and, then, to the data
reported in the FY 2003 R4.

To answer the third objective, we reviewed USAID's Handbook of Indicators for
HIV/AIDS/Sexually Transmitted Infections (STI) Programs, "USAID's Expanded
Response and Evaluation Guidance" (draft dated February 2001), and the status of
the Mission's implementation of this guidance.

For all the above efforts, we reviewed applicable Federal and USAID regulations;
examined Mission and program documents; interviewed Mission officials; and
visited program sites, visits which included reviewing documents and
interviewing project officials and program recipients.

We traveled to the city of Accra in Ghana to review USAID/Nigeria’s financial data.
USAID/Ghana is the accounting station for USAID/Nigeria. In Lagos, Nigeria,
auditors visited two of USAID’s main implementing partners, Family Health
International (FHI) and PSI/SFH. At FHI and PSI/SFH, auditors interviewed
program officials and reviewed program documents. We also visited two local
NGOs working through FHI, Life Link Organization (LLO) and Community Health
Information Education Forum (CHIEF). At CHIEF, auditors observed a seminar
being conducted by the organization to increase the knowledge of HIV/AIDS
prevention and to promote safer sex practices among youths. At LLO, we reviewed
program documents and interviewed Commercial Sex Workers targeted by LLO
about the services being offered through the USAID-funded program.

In assessing accuracy, we used two materiality thresholds. First, for transcription
error, we used an accuracy threshold of plus or minus one percent. Second, for
computation accuracy, we used an accuracy threshold of plus or minus five percent.




                                                                                  17
                                                                            Appendix II

Management
Comments
                                  Metro Plaza, 3rd Floor
                                 Plot 992, Zakaria Maimalari Street
                                 (at Herbert MacCauley [opposite the National War
                                 College])
                                 PMB 519
                                 Garki, Abuja
                                 Telephone: 09-4138374-5, 4138576-7, 2343048,
              U.S. AGENCY FOR
                                 2343469
              INTERNATIONAL
              DEVELOPMENT        2342175, 2342189, 2347173

              NIGERIA




             MEMORADUM

             TO:           Henry Barrett, RIG/Dakar

             From:         Sherry Suggs, Acting Mission Director /s/

             Date:         May 31, 2002

             Subject: Audit of USAID/Nigeria’s Monitoring of
                  the Performance of its HIV/AIDS Program
                       (Report No. 7-620-02-00X-P)
             __________________________________________________
             As requested, the Mission has reviewed RIG’s draft
             report indicated above. Please find below our
             responses to the report’s recommendations.

             Recommendation 1.1: Complete and finalize its
             Performance Monitoring Plan to include specific
             sources of data, data collection methodologies, data
             collection schedules, assignment of responsibilities,
             data limitations, and data assessment procedures for
             all its indicators.

             USAID/Nigeria concurs with this recommendation and we
             have completed our PMP for the transition strategy in
             accordance with ADS 201.3.13(a).

             Prior to the RIG visit, USAID/Nigeria had commenced a
             review of the PMP in the health portfolio
             (Reproductive Health, Child Survival and HIV/AIDS).
             At the time of the RIG visit, the revision of the PMP


                                                                                          18
was an ongoing participatory process involving
USAID/Nigeria's implementing partners with technical
assistance from Measure Evaluation consultants. An
integral part of the review process has been the
completion of performance indicator reference sheets
which are comprehensive reference sheets to record and
update all relevant specifications and details for
each indicator used for monitoring of PHN programs.
The Reproductive Health and Child Survival and
HIV/AIDS performance indicator reference sheets have
been finalized. These reference sheets document the
data and indicator concerns identified during the
audit.

Based on actions taken to date and the attached
performance indicator reference sheets, USAID/Nigeria
request the closure of recommendation No. 1.1 upon
issuance of final report.

Recommendation No. 1.2: Provide training on
performance monitoring to the staff responsible for
implementing the plan.

USAID/Nigeria has identified organizations and
individuals responsible for the completion of the PMP.
Training has been provided to those working on the
PMP. In February 2002, the HIV/AIDS program manager
attended the Measure Evaluation for strengthening
National HIV/AIDS program training/meeting in Dakar,
Senegal and visited other USAID Missions HIV/AIDS
project sites for on-the-job-training.

The PMP review process has served as practical on the
job training in performance monitoring for program
managers who have been working closely with the
Measure Evaluation consultants to complete the
indicator reference sheets. Before the end of FY
2002, USAID/Nigeria proposes to have Measure
Evaluation conduct a final workshop on PHN performance
monitoring for program managers and the implementing
partners to reinforce the lessons learned in revising
the PMP. This will ensure that key personnel are
updated and understand the requirements and
methodology necessary to meet the USAID expanded M&E
requirements.




                                                        19
USAID/Nigeria requests the closure of recommendation
No. 1.2 upon issuance of final report.

Recommendation 2: USAID/Nigeria perform data quality
assessments for all indicators in its Performance
Monitoring Plan and maintain documentation in its
files.

We have completed and documented all the data quality
assessments. Data quality assessment is being
performed using ADS recommended data quality checklist
as a guide and in consultation with M&E experts from
the Measure/Evaluation project. This task will be
fully completed by the end of the fiscal year, 2002.
The review process involves documentation of
indicators and data quality as well as actions planned
to address these issues. Quality assessments will
continue to be an ongoing process incorporated into
normal activity monitoring and field visits, and
meetings with M& E officers in implementing agencies.
This will be documented in USAID/Nigeria's HIV/AIDS
PMP files.

Based on actions taken to date USAID/Nigeria requests
that recommendation No. 2 be closed upon issuance of
final report.

Recommendation 3: We recommend that in the future
annual reports and other special reports USAID/Nigeria
report the correct data on “number of condoms sold”
for fiscal year 1999.

USAID/Nigeria will use the corrected fiscal year 1999
condom sales data in any future annual reports and
other special reports. The condom sales figure of 58
million reported in fiscal year 1999 represented
condom sales and samples for the calendar year January
to December 1999. The actual condom sales in fiscal
year 1999 have been verified to be approximately 51
million. The corrected figures for both calendar and
fiscal years condom sales have been recorded in the
USAID/Nigeria's HIV/AIDS PMP files.

Based on the verification and corrective actions taken
USAID/Nigeria requests that recommendation No. 3 be
closed upon issuance of the final report.



                                                        20
Recommendation 4: We recommend that USAID/Nigeria
establish targets for all indicators used to monitor
the performance of its HIV/AIDS programs.
An integral part of the PMP review process is to
ensure that all indicators used for performance
monitoring have accurate baselines from which program
targets are calculated. USAID/Nigeria has established
baseline and target values for all of the performance
indicators reported in the annual report as required
by the ADS. Copies of the completed HIV/AIDS
performance indicator reference sheets have been
attached for your information.

USAID/Nigeria requests that recommendation No. 4 be
closed upon issuance of final report.

Objective 3: What is the status of USAID/Nigeria’s
efforts to meet anticipated HIV/AIDS reporting
requirements?

USAID/Nigeria had initiated specific actions towards
meeting the anticipated HIV/AIDS reporting
requirements. We were pleased to see that now that
these have been finalized in the Administrator’s cable
of March 2002, that these coincide closely with the
indicators we have selected in our revised PMP.
There are some technical issues relating to the data
that are available in Nigeria, which we are discussing
with USAID/Washington.

The sexual behavior survey (The Nigerbus) conducted by
PSI/SFH will be revised before the end of FY02 in a
participatory process involving PSI/SFH and USAID with
technical support from Measure Evaluation. The review
process will address data quality issues and ensure
collection of indicators required for performance
monitoring of the USAID expanded response to the
HIV/AIDS epidemic.

Key members of USAID/Nigeria’s staff attended the 3-
day technical meeting in Senegal in February, which
discussed the agency plans for expanded HIV/AIDS
reporting and requirements. The mission is working
with USAID/Washington and Measure Evaluation on
determining which of these indicators will be
appropriate for mission reporting. The mission already
has national level data on at least three of the four


                                                        21
critical country indicators: sero prevalence among 15-
24 year olds (national sero surveillance), use of a
condom with an irregular sexual partner (Nigerbus
survey) and sexual debut (1999 Demographic and Health
Survey) and has or will have data on the relevant
program coverage indicators. The mission will make
final adjustments to its monitoring system to include
as appropriate country and performance indicators once
the expanded performance monitoring and evaluation
guidance cable and supplemental guidance are issued
and sent to the field. Final decisions on certain new
program context indicators may not be able to be made
until next summer after the agency finishes its field
testing of new indicators and determines which ones
will be recommended.




                                                     22
                                                                                 Appendix III



Rapid Scale-Up, Intensive Focus, and Basic Countries

              •   Rapid Scale-Up Countries are defined as countries that will receive a significant
                  increase in resources to achieve measurable impact within one-to-two years. This
                  increase will result in an extremely rapid scaling up of prevention programs and
                  enhancement of care and support activities. Rapid Scale-Up countries include:

                  Cambodia        Kenya        Uganda          Zambia

              •   Intensive Focus Countries are defined as countries where resources will be
                  increased and targeted to reduce prevalence rates (or keep prevalence low in low-
                  prevalence countries), to reduce HIV transmission from mother to infant and to
                  increase support services for people (including children) living with and affected
                  by AIDS within three-to-five years. Intensive Focus Countries include:

                  Ethiopia                      Nigeria                 Brazil
                  Ghana                         Rwanda                  India
                  Malawi                        Senegal                 Russia
                  Mozambique                    South Africa
                  Namibia                       Tanzania

              •   Basic Countries are defined as countries in which USAID will support host
                  country efforts to control the pandemic. USAID programs will continue to
                  provide assistance, focusing on targeted interventions for populations who engage
                  in high-risk behavior. In these countries, there will be an increased emphasis on
                  maintaining credible surveillance systems in order to monitor HIV trends and
                  allow timely warning of impending concentrated epidemics of HIV. In addition,
                  USAID will assist country institutions to identify additional sources of funding to
                  expand programming.




                                                                                                   23
                                •                                                                                                                                                         Appendix IV



                                SUMMARY OF USAID/N IGERIA’S SELECTED PERFORMANCE MONITORING CONTROLS
                    Performance Monitoring Plan
Indicator           1.              2.               3.               4.               5.                 6.            7.                                               10.
                                                                                                                                       8.               9.                            11.
(complete           Indicator       Data Sources     Data             Data             Responsibility     Data          Quality                                          Data
                                                                                                                                       Data Quality     Baseline                      Other Means of
definition shown    Precisely       Identified       Collection       Collection       Assigned           Limitations   Assessment                                       Agrees
                                                                                                                                       Assessment       Established                   Monitoring
below)              Defined                          Method           Schedule                            Disclosed     Procedures                                       to
                                                                                                                                       Done                                           (If yes, indicate type)
                    (c)                              Described        Specified                           (a)           Described                                        Source FY
                                                                                                                                       (b)
                                                                                                                        (a)                                              1999/2000


Number of           Yes             No               No               Yes              No                 No            No             No               Yes              No/Yes       Yes (Portfolio Review)
Condoms Sold


Condom Use of       Yes             No               No               No               No                 No            No             No               Yes              N/A          Yes (Portfolio Review)
Targeted Group                                                                                                                                                           (e)


AIDS Patients       Yes             No               No               No               No                 No            No             N/A              No               N/A          Yes (Portfolio Review)
Managed at                                                                                                                             (d)                               (d)
Home through
CBO


   (a)   Note that these requirements were added to the ADS as of September 1, 2000, and must be implemented starting June 1, 2001.
   (b)   Per the ADS, data quality assessments are required for indicators used to report progress in the annual Results Review and Resource Request (R4) report, and for data included in special reports
   to      Congress or other oversight agencies, such as annual HIV/AIDS or micro-enterprise reports.
   (c)   Detailed description included in the PMP, but some ambiguity was noted with certain components of the indicator definition. Nevertheless, the definition was deemed acceptable.
   (d)    Not applicable. No data reported for this indicator.
   (e)    Not applicable. Data obtained from BSS survey not reported externally. Per USAID/Nigeria data used for internal program management decisions.


   Definitions of the indicators used
   1. Number of condoms sold.
   2. Proportion of targeted group reporting condom use in most recent act of sex with non-regular partner.
   3. Proportion of AIDS patients managed at home through community-based organizations (CBOs).




                                                                                                                                                                                                          24
